No.

Jn ~bt &upremt ~ourt of tbt ltnittb &tattj
ROSIE DIGGLES, PETITIONER
V.

UNITED STATES OF AMERICA

PROOF OF SERVICE
TO THE CLERK OF THE SUPREME COURT OF THE UNITED STATES:
I do hereby certify, pursuant to Supreme Court Rules 29.4(a) and 29.5(b) that three
copies of the Petition for Writ of Certioari to the Court of Appeals for the Fifth Circuit and a
copy of the Motion to Proceed In forma pauperis were served by postage prepaid, first class mail
to K.P. Thomas Gibson, AUSA E.D.TX. 350 Magnolia Street, Beaumont, Texas 77701; and one
copy to the Solicitor General of the United States, Room 5616, Department of Justice, 950
Pennsylvania Ave. N.W., Washington, D.C. 20530-0001; and one copy to Ms. Rosie Diggles #
25053-078, San Antonio RRM, 727 E, Cesar Chavez Blvd, Ste. B-138, San Antonio, Texas
78206, on September 24, 2020.

RESPECTFULLY SUBMITTED,

~-

Don Bailey
Attorney for Pet1fn:mer
309 N. Willow
Sherman, Texas 75090
(903) 892-9185

